No. 20-804
IN THE SUPREME COURT OF THE UNITED STATES
HOUSTON COMMUNITY COLLEGE SYSTEM, PETITIONER
v.
DAVID BUREN WILSON
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the MOTION OF THE UNITED STATES FOR LEAVE TO PARTICIPATE IN ORAL
ARGUMENT AS AMICUS CURIAE, FOR ENLARGEMENT OF TIME FOR ORAL
ARGUMENT AND FOR DIVIDED ARGUMENT, via email and first-class mail, postage
prepaid, this 24th day of September 2021.
[See Attached Service List]

Edwin S. Kneedler
Deputy Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
September 24, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of your
brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisor, Case
Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

20-0804
HOUSTON COMMUNITY COLLEGE SYSTEM
DAVID BUREN WILSON

JESSICA LYNN ELLSWORTH
HOGAN LOVELLS US, LLP
555 13TH STREET NW
WASHINGTON, DC 20004
202-637-5886
JESSICA.ELLSWORTH@HOGANLOVELLS.CO
M
MICHAEL B. KIMBERLY
MCDERMOTT WILL & EMERY LLP
500 NORTH CAPITOL STREET, NW
WASHINGTON, DC 20001
202-756-8000
MKIMBERLY@MWE.COM
RICHARD A. MORRIS
ROGERS, MORRIS & GROVER, L.L.P.
5718 WESTHEIMER ROAD
SUITE 1200
HOUSTON, TX 77057
713-960-6019
MORRIS@RMGLLP.COM
GREGORY E. OSTFELD
GREENBERG TRAURIG LLP
77 WEST WACKER DRIVE
SUITE 3100
CHICAGO, IL 60601
312-456-8400
OSTFELDG@GTLAW.COM

JUDD EDWARD STONE
TEXAS ATTORNEY GENERAL'S OFFICE
P.O. BOX 12548
(MC 059)
AUSTIN, TX 78711-2548
512-936-1700
JUDD.STONE@OAG.TEXAS.GOV
EUGENE VOLOKH
UCLA SCHOOL OF LAW
385 CHARLES E. YOUG DRIVE EAST
LOS ANGELES, CA 90095
310-206-3926
HSLUGH@JCRL.ORG
MEREDITH PRYKRYL WALKER
WALSH GALLEGOS TREVINO RUSSO & KYLE
P.C.
105 DECKER COURT
SUITE 700
IRVING, TX 75062
214-574-8800
MWALKER@WABSA.COM

